                            AUDIT REPORT                                 IG-03-013




Report Recipients:
H/Assistant Administrator
   for Procurement              NASA NONCOMPLIANCE WITH WASTE
J/Assistant Administrator
  for Management Systems           REDUCTION REQUIREMENTS

                                                    May 30, 2003




cc:
JM/Director, Management
    Assessment Division
NASA Center Directors




                            OFFICE OF INSPECTOR GENERAL


                            Released by: ___[original signed by]       __
 National Aeronautics and
 Space Administration       David M. Cushing, Assistant Inspector General for Auditing
                        NASA Office of Inspector General

IG-03-013                                                               May 30, 2003
 A-01-011-00

       NASA Noncompliance With Waste Reduction Requirements

We performed this audit to determine whether NASA effectively complied with the
requirements of Executive Order (EO) 13101, “Greening the Government Through Waste
Prevention, Recycling and Federal Acquisition,” September 14, 1998, and the Resource
Conservation and Recovery Act (RCRA). One of the Federal government’s goals for
protecting the environment is to lead waste reduction efforts by using recycled and
environmentally preferable products. EO 13101 and Section 6002 of RCRA require
agencies to meet this goal by implementing affirmative procurement programs to increase
the use of recycled and environmentally preferable products. Details regarding the audit
objectives, background, scope, and methodology are in Appendix C.

We found that NASA’s affirmative procurement program needs improvements.

   •   Centers were not obtaining waivers to justify purchases of certain nonrecycled
       products because Center personnel were not aware that a waiver was required and
       because a waiver process did not exist at one Center.
   •   The Federal Acquisition Regulation (FAR) clauses related to waste reduction and
       using products containing recovered materials were not included in applicable
       support services contracts because the contracting officers had not received
       adequate training or guidance on the FAR requirements.
   •   The Agency Environmental Executive (AEE) needs to be at a higher level to meet
       EO requirements.

NASA Should Justify Purchases of Certain Products Without Recycled Content

NASA’s affirmative procurement program is not fully compliant with EO 13101 and
RCRA. The Environmental Protection Agency (EPA) has designated 56 products that
agencies are to purchase with recycled content whenever feasible. These products
include building insulation, carpet, cement, concrete, latex paint, printer ribbons, toner
cartridges, printing paper, and engine coolants. EPA-designated products are general
product categories that may or may not contain recycled content, depending upon the
manufacturer, supplier, or other factors. For example, printing paper is available from
many sources, some of which provide paper produced from only new materials. Other
sources provide paper manufactured with recycled materials. Therefore, even though a
product is EPA-designated, it may not contain the required recycled content.
NASA Procedures and Guidelines (NPG) 8830.1, “Affirmative Procurement for
Environmentally Preferable Products,” February 1999, requires that when NASA
purchases EPA-designated products, the items must contain recycled content unless the
purchaser obtains a written waiver. Under the waiver process, a procurement request
originator must furnish a request for a waiver to his or her Center environmental
manager, or a designee, for approval before the purchase of a product without the
required recycled content. A waiver may be obtained if the products with recycled
content are not available competitively within a reasonable time frame, do not meet
appropriate performance standards, or are available only at an unreasonable price.

For FYs 2000 and 2001, NASA purchased about $16.2 million of EPA-designated
products. About $5.9 million (36.4 percent) of this total was for product purchases that
required a waiver (that is, the products did not have the required recycled content).
However, no waivers were prepared for any of the purchases included in the 2-year
period even though the NASA Centers, except for the Johnson Space Center, had a
waiver process. NASA purchases that were not supported by waivers increased from 30
percent in FY 2000 to 42 percent in FY 2001 (see Appendix E).

The NASA AEE stated that contracting officers were not aware of affirmative
procurement program requirements because of a lack training on the requirements. This
official also believed that the lack of emphasis on compliance at the Center level may
have contributed to an ineffective program. Center officials also acknowledged that the
lack of training and emphasis contributed to an ineffective program.

Required FAR Clauses Not Included in NASA Contracts

Contracting officers can obligate contractors to comply with EO and RCRA requirements
by incorporating certain FAR clauses in NASA contracts. The FAR requires that certain
clauses directing contractors to reduce waste and to use products containing recovered
materials be included in contracts that provide for or support the operation of NASA-
owned facilities. From August 1, 2000, through October 30, 2001, NASA awarded 60
such contracts valued at more than $1.0 billion. Most of those contracts should have
included, but did not include the applicable FAR clauses:

   •   50 (83.3 percent) of the 60 contracts did not include FAR clause 52.223-10,
       which requires contractors to establish waste reduction programs, and
   •   55 (91.7 percent) contracts omitted FAR clauses 52.223-4 and 52.223-9, which
       require contractors to certify that they will use at least the amount of recovered
       materials required by the applicable contract specifications and to estimate the
       percentage of recovered materials used during the performance of the contract.
       (see Appendix F).

Contracting officers play a vital role in ensuring that NASA and its contractors fully
achieve the benefits associated with reducing waste and buying recycled products.
NASA officials at both Headquarters and the Centers attributed the lack of inclusion of
the clauses by the contracting officers to a lack of training and to a lack of emphasis on
compliance with the requirements of the EO, RCRA, and the FAR. In addition, NASA
Procurement Management Surveys, which are used to monitor the effectiveness of



                                             2
internal controls over Center procurement processes, did not identify that contracting
officers had not included the applicable FAR clauses in contracts and, therefore, were not
useful in ensuring that the requirements were met.

Agency Environmental Executive Position Is Not at the Level Required

The EO requires that the NASA Administrator establish the NASA AEE position at the
Assistant Administrator level to help ensure that EO objectives are given appropriate
visibility and management attention throughout the Agency. The NASA Administrator
initially designated the Associate Administrator for Management Systems and Facilities
(now known as the Assistant Administrator for Management Systems) to be the NASA
AEE. However, NASA’s Assistant Administrator for Management Systems
subsequently designated the Director of the Environmental Management Division as the
AEE for NASA and assigned tasks supporting many AEE responsibilities to the Principal
Center for Recycling and Affirmative Procurement, which is located at the Kennedy
Space Center. According to the Assistant Administrator and Environmental Management
Division officials, confusion over the appropriateness of delegating AEE responsibilities
to lower organization levels may have existed, because a prior EO and NPG 8830.1
permitted delegation to a lower-level organization.

Delegating the AEE position to a lower-level organization reduced the effectiveness of
the AEE position. The Center environmental managers we interviewed believed they did
not have enough influence to ensure that program and procurement personnel complied
with the EO, RCRA, and FAR requirements and that program direction was needed from
a level higher than the Environmental Management Division at Headquarters or the
Principal Center. The Centers’ noncompliance with EO and RCRA requirements for
purchasing products containing recycled content and the award of contracts without the
required FAR clauses indicate that the AEE is not at a high enough level to ensure
appropriate management attention is given to the affirmative procurement program.

Recommendations for Corrective Action

We recommended that the Assistant Administrator for Management Systems, in
coordination with the Assistant Administrator for Procurement, emphasize the
affirmative procurement requirements in NPG 8830.1 and provide training on EO and
RCRA requirements for applicable personnel. We also recommended that the Director,
Johnson Space Center, direct the appropriate officials to implement a waiver process for
EPA-designated products in accordance with NPG 8830.1.

In addition, we recommended that the Assistant Administrator for Procurement provide
training for contracting officers on affirmative procurement requirements and include a
review for affirmative procurement clauses in Procurement Management Surveys.
Further, we recommended that the Assistant Administrator for Management Systems
revise NPG 8830.1 to address the requirements of the EO and immediately assume the
role of the AEE.


                                            3
Management’s Response and our Evaluation of the Response

NASA concurred with the report recommendations and has initiated corrective actions.
We consider management’s comments (see Appendix H) to be responsive to the
recommendations. Details related to disposition of the recommendations are in
Appendices A and G.

Appendices

Among the appendices, note that Appendix B includes background on applicable laws
and regulations; Appendix C describes objectives, scope, and methodology; and
Appendix D includes a summary of prior audits on affirmative procurement. In addition,
Appendix E summarizes NASA purchases of EPA-designated products, and Appendix F
identifies contracts that should include FAR requirements. Appendix I shows the report
distribution.




                                          4
List of Appendixes

Appendix A – Status of Recommendations

Appendix B - Background

Appendix C – Objectives, Scope, and Methodology

Appendix D – Prior Audit Coverage

Appendix E – NASA Purchases of EPA-Designated Products

Appendix F – Contracts That Should Include FAR Requirements

Appendix G – Recommendations, Management’s Response, and Evaluation
             of Management’s Response

Appendix H – Management’s Response

Appendix I – Report Distribution




Acronyms

AEE         Agency Environmental Executive
EO          Executive Order
EPA         Environmental Protection Agency
FAR         Federal Acquisition Regulation
FY          Fiscal Year
NPG         NASA Procedures and Guidelines
RCRA        Resource Conservation and Recovery Act




                                      5
                     Appendix A. Status of Recommendations


      Recommendation No.      Resolved       Unresolved   Open/ECD* Closed
             1                   X                         7/31/03
             2                   X                         5/31/04
             3                   X                         9/30/03
             4                   X                         5/31/04
             5                   X                         7/31/03
             6                   X                         5/31/04
             7                   X                         6/30/03




*Estimated completion date.




                                         6
                                    Appendix B. Background

RCRA Requirements. Section 6002 of the RCRA, dated October 21, 1976, required the
Administrator of the EPA to develop and publish guidelines for solid waste management that are
to be followed by the Government and the private sector. The RCRA required each procuring
agency needing these designated products to procure products composed of the highest
percentage of recovered materials practicable consistent with maintaining satisfactory contract
competition. The RCRA further specified that procuring agencies did not have to purchase
products meeting guidelines if such products:

           (A) Are not reasonably available within a reasonable period of time;

           (B) Fail to meet the performance standards set forth in the applicable specifications
               or fail to meet the reasonable performance standards of the procuring agencies;
               or

           (C) Are only available at an unreasonable price.

Executive Orders 12873 and 13101. As a follow-on to the RCRA requirements, EO 12873,
“Federal Acquisition, Recycling, and Waste Prevention,” issued October 20, 1993, and its
replacement EO 13101, “Greening the Government through Waste Prevention, Recycling, and
Federal Acquisition,” issued September 14, 1998, served to improve the Federal Government’s
use of recycled products and environmentally preferable products and services. The EOs
required NASA to designate an AEE to assure NASA's compliance with the requirements. The
RCRA required NASA to establish affirmative procurement programs for all EPA-designated
guideline products purchased by the Agency above the threshold of $10,000. Both EOs required
100 percent of NASA’s purchases of the EPA-designated guideline products to meet or exceed
the guidelines unless NASA’s procurement request originators provided written justifications
that the products were not available competitively within reasonable time frames, did not meet
appropriate performance standards, or were available only at unreasonable prices. In addition,
the EO’s required the AEE to track agency purchases of guideline products and to report the
purchases to the Federal Environmental Executive. The Federal Environmental Executive is
designated by the President and is located within the EPA.

FAR Clause Requirements. These clauses require contractors to comply with EO and RCRA
requirements concerning recovered materials and waste reduction.

       •   FAR Clause 52.223-10, "Waste Reduction Program." This clause requires
           contractors to establish programs to promote cost-effective waste reduction in all
           operations and facilities covered by Government contracts. FAR Subpart 23.7,
           “Contracting for Environmentally Preferable and Energy-Efficient Products and
           Services,” requires this clause to be incorporated into all solicitations and contracts
           for contractor operation of Government-owned or -leased facilities and all
           solicitations and contracts for support services at Government-owned or -operated
           facilities.



                                                       7
Appendix B

       •   FAR Clause 52.223-4, "Recovered Material Certification." This clause requires
           contractors to certify that the percentage of recovered materials to be used in
           performing their contracts will be at least the amounts required by the applicable
           contract specifications. FAR Subpart 23.4, “Use of Recovered Materials,” requires
           this clause to be inserted in solicitations that are for, or specify the use of, recovered
           materials.

       •   FAR Clause 52.223-9, "Estimate of Percentage of Recovered Material Content
           for EPA-Designated Products." This clause requires contractors to estimate the
           percentages of recovered materials content for the EPA-designated products used in
           contract performance upon completion of the contracts, including, if applicable, the
           percentages of postconsumer material content. FAR Subpart 23.4 requires this clause
           to be included in solicitations and contracts exceeding $100,000 that include FAR
           Clause 52.223-4.

These FAR clauses are limited in scope, and contractors are required to comply only if the
specific clauses are included in their contracts.

NASA Implementing Guidelines. NASA issued NPG 8830.1, “Affirmative Procurement for
Environmentally Preferable Products,” in February 1999 to establish standard procedures for
procuring environmentally preferable goods and services to the maximum extent possible
consistent with requirements in EO 13101, FAR Part 23, and NASA policy and directives. The
NPG, signed by the former Administrator, specifies that the Associate Administrator for the
Office of Management Systems and Facilities (now the Assistant Administrator for Management
Systems) was to function as the AEE for NASA. The NPG also provides that the AEE position
could be delegated to lower management levels within the Agency.

Further, the NPG assigns various responsibilities to the Centers: implementing a Center
awareness program to promote affirmative procurement; advising procurement request initiators
on acquisition strategies for environmentally preferable products and services; ensuring that
Center procurements comply with the EO unless a waiver is approved; and reporting these
purchases to the Principal Center.

In addition, the NPG established a waiver process to document the approval to purchase products
that do not meet EPA guidelines. The NPG requires the procurement request originator to obtain
an approved request for a waiver before the purchase of a product that does not meet EPA
requirements for recovered materials. The procurement request originator must furnish the
approved waiver to the contracting officer for acquisition of the product and for documentation
for the contract files. The NPG states that waivers are permitted only for products that cannot be
acquired competitively within a reasonable time, or meet appropriate performance standards, or
at a reasonable price.




                                                  8
                 Appendix C. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to determine whether NASA adequately complied with
EO 13101, “Greening the Government Through Waste Prevention, Recycling, and Federal
Acquisition.” Specifically, we evaluated NASA’s compliance with EO 13101 and efforts to
incorporate the FAR clauses related to EO and RCRA requirements into applicable contracts.

Our original objectives also included evaluating waste reduction initiatives implemented in
response to the EO. We found that NASA implemented waste reduction initiatives to
significantly reduce the amount of waste NASA generates for landfills and to save costs.
However, the extent of savings will occur over the long term and cannot be fully evaluated at
this time. We also evaluated NASA’s actions to identify and assess opportunities for
consolidating waste reduction activities with other collocated Federal agencies and offices.
NASA Centers have implemented several initiatives with other Federal agencies that may
provide environmental benefits. NASA may have additional opportunities to consolidate waste
reduction activities with other Federal agencies, but taking advantage of these opportunities will
require the cooperation of the other agencies.

Scope and Methodology

We reviewed applicable NASA and Federal regulations and policies. We visited NASA
Headquarters to identify actions taken by the Office of Management Systems, the Environmental
Management Division, and the Office of Procurement to comply with the requirements of EO
13101. Additionally, we evaluated the following at Kennedy Space Center (Kennedy), Marshall
Space Flight Center (Marshall), and Wallops Flight Facility (Wallops):

   •   Compliance with the requirements of EO 13101; Section 6002 of RCRA; and
       NPG 8830.1, “Affirmative Procurement Plan for Environmentally Preferable Products.”

   •   NASA’s efforts to incorporate the FAR clauses related to EO and RCRA requirements
       into applicable contracts.

Based on our work at Kennedy, Marshall, and Wallops, we developed questionnaires for the
remaining Centers and requested information to determine whether the Centers complied with
EO 13101 and Section 6002 of RCRA, how they implemented the affirmative procurement
program, and whether appropriate clauses had been included in NASA contracts. Additionally,
we interviewed the Deputy Chief, Office of the Federal Environmental Executive, to gain insight
into the intent of the EO and RCRA.

We used computer-processed reports from NASA Headquarters and Kennedy to determine the
volume of purchases of EPA-designated products. We selectively tested the data by comparing
it to Center-provided data to determine its reliability and concluded that the data was reliable.



                                                 9
Appendix C

Management Controls Reviewed

We reviewed the management controls relative to the implementation of EO 13101 and Section
6002 of RCRA. Specifically, we reviewed documentation related to the delegation of the NASA
AEE and taskings to the Principal Center. We also reviewed the process and controls over
purchasing EPA-designated items and the inclusion of the FAR clauses in applicable contracts.
We concluded that NASA’s affirmative procurement program needs to be strengthened as
described in this report.

Audit Field Work

We conducted field work from February 2001 through August 2002 at NASA Headquarters,
Kennedy, Marshall, and Wallops. We performed the audit in accordance with generally
accepted government auditing standards.




                                             10
                          Appendix D. Prior Audit Coverage

In June 2001, the General Accounting Office issued a report entitled, "Federal Procurement,
Better Guidance and Monitoring Needed to Assess Purchases of Environmentally Friendly
Products." The General Accounting Office found it could not determine the extent to which the
large procuring agencies, including NASA, were procuring EPA-designated products because
the agencies lacked reliable and complete data on contractor purchases of these products. The
agencies did not have adequate systems to track purchases of EPA-designated products by their
contractors. NASA concurred with the draft report and endorsed the General Accounting
Office’s recommendations for executive action.

The NASA Office of Inspector General issued Report IG-99-051, "Audit of Environmental
Aspects of External Tank Contract NAS8-36200," September 24, 1999. The audit found that the
external tank contract had not been modified to incorporate the Federal waste reduction program
as set forth under the FAR, and as a result, adverse environmental effects may not have been
minimized and potential recycling benefits could not be realized.

The NASA Office of Inspector General also issued Report IG-98-017, “Kennedy Space Center’s
Recycling Efforts,” June 12, 1998. The audit found that Kennedy did not collect and report
accurate recycling data, which did not allow for reasonable measurements of program
accomplishments. In addition, Kennedy had no collection procedures to retain proceeds from its
recycling program, which resulted in $141,431 in revenue not being available to Kennedy for
funding additional recycling projects.




                                              11
                                   Appendix E. NASA Purchases of EPA-Designated Products
                                     Fiscal Year 2000                          Fiscal Year 2001                               Total
                             Total        Amount      Percentage       Total       Amount      Percentage       Total        Amount      Percentage
                            Amount       Requiring    Requiring       Amount      Requiring     Requiring      Amount       Requiring    Requiring
           Facility        Purchased      Waiver       Waiver        Purchased      Waiver       Waiver       Purchased      Waiver       Waiver
      Ames Research          $396,355       $94,045         23.7       $281,960     $196,811          69.8      $678,315      $290,856         42.9
       Center
      Dryden Flight             73,048        59,316          81.2       25,028        15,870          63.4       98,076       75,186          76.7
       Research Center
      Glenn Research           516,775       195,575          37.8      719,759       672,364          93.4     1,236,534     867,939          70.2
       Center
      Goddard Space          1,436,165       729,689          50.8      960,564       288,190          30.0     2,396,729    1,017,879         42.5
       Flight Center
      Headquarters             116,104         6,399           5.5       18,985        14,939          78.7      135,089       21,338          15.8

      Jet Propulsion         1,171,821       341,996          29.2    1,372,763       448,781          32.7     2,544,584     790,777          31.1
       Laboratory
      Johnson Space          1,151,005       222,697          19.3      709,080       343,375          48.4     1,860,085     566,072          30.4
       Center
      Kennedy Space          1,583,435       477,996          30.2    1,922,076       453,145          23.6     3,505,511     931,141          26.6
12




       Center
      Langley Research         272,652        32,904          12.1      573,771       215,001          37.5      846,423      247,905          29.3
       Center
      Marshall Space           917,178        28,409           3.1      785,259       479,181          61.0     1,702,437     507,590          29.8
       Flight Center
      Michoud Assembly         241,004       151,322          62.8      170,334        83,315          48.9      411,338      234,637          57.0
       Facility
      Stennis Space            189,185        96,882          51.2      293,425       139,419          47.5      482,610      236,301          49.0
       Center
      White Sands Test         169,889        38,182          22.5      143,456        27,820          19.4      313,345       66,002          21.1
       Facility
      Total                 $8,234,616    $2,475,412          30.1   $7,976,460    $3,378,211          42.4   $16,211,076   $5,853,623         36.1

     Source: Center/Facility reports of EPA-designated products to NASA’s Agency Environmental Executive.
     Note: Goddard Space Flight Center also includes Wallops Flight Facility data.
                                Appendix F. Contracts That Should Include FAR Requirements
                                                    (Awarded from August 2000 through 2001)
                                                                   Number of                                Number of
                                                                  Contracts that                          Contracts that   Value of Contracts
                             Number of                            Did Not Have       Value of Contracts   Did Not Have       without FAR
                             Contracts       Total Value of        FAR Clause          without FAR        FAR Clauses       Clauses 52.223-4
            Center           Awarded           Contracts            52.223-10         Clause 52.223-10     52.223-4 and      and 52.223-9
                                                                                                             52.223-9
     Ames Research
      Center                       5              $23,015,062            5                  $23,015,062          5                $23,015,062

     Dryden Flight
      Research Center              1               23,333,127            0                            0          0                          0

     Glenn Research
      Center                       4              186,988,619            4                  186,988,619          4                186,988,619

     Goddard Space
      Flight Center              20               227,849,774           18                   94,945,946        19                 152,383,868

     Johnson Space
      Center                     18               137,563,734           15                  121,734,007        18                 137,563,734

     Kennedy Space
13




      Center                      1                 1,985,563            0                            0         1                   1,985,563

     Langley Research
      Center                       3              426,300,000            2                  423,800,000          2                423,800,000

     Marshall Space
      Flight Center                4              151,742,729            2                  136,181,087          2                 18,086,435

     Stennis Space
       Center                     4                15,590,553            4                   15,590,553         4                  15,590,553


     Totals                      60            $1,194,369,161          50                $1,002,255,274        55                $959,413,834
     Source: Center/Facility Data on Contracts
     Note: Goddard Space Flight Center also includes Wallops Flight Facility data.
     Appendix G. Recommendations, Management’s Response, and
               Evaluation of Management’s Response

The Assistant Administrator for Management Systems, in coordination with the
Assistant Administrator for Procurement, should:

        1. Emphasize to Center environmental managers and contracting officers
the affirmative procurement requirements in NPG 8830.1, and reaffirm NASA’s
commitment to the program.

Management’s Response. Concur. The Assistant Administrator for Management
Systems and Assistant Administrator for Procurement will distribute a memorandum
regarding NASA's commitment to affirmative procurement requirements to the
environmental managers and contracting officers.

      2. Provide training on EO and RCRA requirements for all applicable
environmental, procurement, and applicable program office officials.

Management’s Response. Concur. NASA will design, develop, and deploy training on
affirmative procurement, including guidance on the EO, RCRA, and/or FAR
requirements, as appropriate to the job function.

Evaluation of Management’s Responses. Management’s planned actions to
recommendations 1 and 2 are responsive. The recommendations are resolved but will
remain undispositioned and open until the agreed-to corrective actions are completed.

3. The Director, Johnson Space Center, should direct the appropriate officials to
implement a waiver process for EPA-designated products in accordance with
NPG 8830.1.

Management’s Response. Concur. The Johnson Space Center is developing a waiver
process, based on an evaluation of Center procurement processes. Johnson is also
looking at waiver processes developed at other Centers for best practices.

Evaluation of Management’s Response. Management’s planned actions are
responsive. The recommendation is resolved but will remain undispositioned and open
until the agreed-to corrective action is completed.

The Assistant Administrator for Procurement should:

       4. Provide training for contracting officers on affirmative procurement
requirements and the use of related FAR clauses.

Management’s Response. Concur. NASA will review existing mandatory training for
contracting officers to evaluate its coverage of affirmative procurement requirements and


                                           14
                                                                             Appendix G

related FAR clauses. On the basis of that review, NASA will work to assure contracting
officer training is adequate, possibly augmenting standard Governmentwide training
required for certification.

      5. Direct staff performing Procurement Management Surveys to determine
whether contracting officers included the required FAR clauses in contracts that
provide for or support the operation of NASA-owned facilities.

Management’s Response. Concur. The Assistant Administrator for Procurement will
review and revise as necessary guidance for Procurement Management Surveys to assure
the required FAR clauses are included in contracts that provide for or support the
operation of NASA-owned facilities.

Evaluation of Management’s Responses. Management’s planned actions to
recommendations 4 and 5 are responsive. The recommendations are resolved but will
remain undispositioned and open until the agreed-to corrective actions are completed.

The Assistant Administrator for Management Systems should:

       6. Revise NPG 8830.1 to reflect the EO 13101 requirement that the AEE
position be established at no lower than the Assistant Administrator level and that
the position cannot be delegated to a lower level.

Management’s Response. Concur. NASA will include the requirement as a part of the
scheduled revision of NPG 8830.1.

      7. Immediately assume the role of the AEE to comply with the requirements
of EO 13101.

Management’s Response. Concur. NASA will establish the Assistant Administrator for
Management Systems as the Agency Environmental Executive, and the Director of
Environmental Management as the Alternate Agency Environmental Executive. NASA
will distribute a letter to Office of the Federal Environmental Executive to formalize this
agreement.

Evaluation of Management’s Responses. Management’s planned actions to
recommendations 6 and 7 are responsive. The recommendations are resolved but will
remain undispositioned and open until the agreed-to corrective actions are completed.




                                            15
Appendix H. Management’s Response




               16
     Appendix H




17
Appendix H




             18
                       Appendix I. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
LaRC/106/Acting Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Managing Director, Natural Resources and Environment, General Accounting Office




                                         19
Appendix I

Non-NASA Federal Organizations and Individuals (Cont.)

Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Environment and Public Works
Senate Subcommittee on Environment and Hazardous Materials
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         20
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or
can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: NASA Noncompliance With Waste Reduction Requirements

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically       5        4        3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5        4        3          2          1       N/A
3.   We effectively communicated the audit               5        4        3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5        4        3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent              Fair
      Very Good              Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

      Congressional Staff                       Media
      NASA Employee                             Public Interest
      Private Citizen                           Other:
      Government:             Federal:             State:         Local:


May we contact you about your comments?

 Yes: ______                                     No: ______
 Name: _______________________________
 Telephone: ___________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Major Contributors to the Report

Mr. Chester Sipsock, Associate Director, Office of Audits Quality Control Division

Mr. Patrick Iler, Project Manager

Ms. Karen VanSant, Project Manager

Mr. Rick Angle, Auditor

Mr. Phillip Dearth, Auditor

Ms. Annette Huffman, Program Assistant
